Memorandum from the Office of the Inspector General



December 3, 2009

John Atwell Jr., EQB 1A-WBN
Masoud Bajestani, EQB 1B-WBN

FINAL REPORT – INSPECTION 2008-11995 – REVIEW OF EDUCATIONAL DEGREES
FOR CONTRACTORS ASSIGNED TO THE WATTS BAR NUCLEAR PLANT UNIT 2
CONSTRUCTION COMPLETION PROJECT



Based on reports of government and contractor employees obtaining phony/counterfeit
educational degrees, we conducted a review of Bechtel and subcontractor employees
assigned to the Watts Bar Nuclear Plant Unit 2 Construction Completion Project (WBN U2
Project). Our objective was to validate, for selected personnel, the highest educational
degree listed on the resume submitted for employment. In summary, we found no
instances where an employee was hired based on a fraudulent degree. However, neither
Bechtel nor the Office of the Inspector General (OIG) was successful in verifying one
Bechtel employee's degree.

BACKGROUND

An article published July 30, 2008, by the Spokesman-Review1 listed almost 10,000
people identified by the Department of Justice who had purchased phony and counterfeit
high school and college degrees. One of the people included in the list, an employee of a
company which operates two nuclear plants in Minnesota, was found to have counterfeit
degrees in engineering and accounting. We conducted this review to validate the highest
degree listed on the employee's resume which was submitted for employment by Bechtel
and subcontractor employees assigned to the WBN U2 Project.

The personnel access authorization requirements for nuclear power plants, 10 CFR 73.56,
published by the Nuclear Regulatory Commission, state licensees, applicants, and
contractors or vendors shall ensure that an employment history evaluation has been
completed on a best effort basis by questioning the individual's present and former
employers and by determining the activities of the individual while unemployed. If
education is claimed in lieu of employment, the individual shall provide any information
related to the claimed education that could reflect on the individual's trustworthiness and
reliability and, at a minimum, verify that the individual was registered for the classes and
received grades that indicate the individual participated in the educational process during
the claimed period.


1
    The Spokesman-Review is the daily newspaper in Spokane, Washington.
John Atwell Jr.
Masoud Bajestani
Page 2
December 3, 2009



According to a TVA Nuclear Access Services employee, to obtain unescorted access to
nuclear facilities, an educational review is only required if the individual has not been
employed for the last five years or more. Individuals who do not require unescorted
access to the facilities do not have their education verified. Additionally, the Bechtel
Human Resources Manager stated that the two most recent post-secondary degrees
attained are verified if the position requires the degree.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this review was to validate, for selected WBN U2 Project personnel, the
highest educational degree listed on the resume submitted for employment. To achieve
our objective, we verified the educational achievement required for employment as
reported by selected Bechtel and subcontractor employees by either (1) using the National
Student Clearinghouse,2 (2) reviewing verification documentation maintained by Bechtel,
(3) independently researching the applicable school and contacting them, or (4) having the
Human Resources Manager contact the employee. Specifically, we:

•     Reviewed the list of purchasers of phony or counterfeit degrees from the Spokesman-
      Review article for names which match those of contract employees who have worked
      on the WBN U2 Project and verified those employees' highest educational degree
      obtained.

•     Verified the highest degree obtained for a sample of 135 Bechtel employees. Our
      sample consisted of (1) a judgmentally selected sample of 56 employees used in a
      previous inspection,3 (2) an additional randomly selected sample of 70 employees
      from the active Bechtel employees assigned to the site, and (3) 9 employees whose
      names matched those on the list of counterfeit degrees published in relation to the
      Spokesman-Review article. This resulted in a total sample of 135 employees, or about
      10 percent of the population universe.

This review was conducted in accordance with the "Quality Standards for Inspections."

FINDINGS

Our review found no instances where an employee was hired based on a fraudulent
degree. However, neither Bechtel nor the OIG was successful in verifying one employee's
degree. The results of our work are summarized below:

•     Ten employees had not provided educational information on their resume. We
      determined from Bechtel Human Resources that these employees were hired based
      on their experience rather than education.



2
    The National Student Clearinghouse is a nonprofit organization that provides services for post-secondary
    and secondary student degree, diploma, and enrollment verification.
3
    OIG Inspection 2008-11591, Review of Contractor Qualifications for Bechtel Employees Assigned to the
    Watts Bar Nuclear Plant Unit Two Construction Completion Project.
John Atwell Jr.
Masoud Bajestani
Page 3
December 3, 2009



•     Twelve employees had obtained a high school degree more than 30 years ago.
      According to Bechtel's Human Resources Manager, these employees were not hired
      based on their degree but rather their experience; therefore, we did not verify their
      high school degree.

•     Twenty-five of the employees' degrees had been verified through Bechtel because the
      degree was required for the position they were hired to do. To verify degrees, Bechtel
                    4                                                      5
      used Bartlett, The National Student Clearinghouse, Sterling Direct, and World
                            6
      Education Services. Also, Bechtel often contacted the university or school directly to
      obtain education verification. This verification was documented and received in
      addition to their resume and/or application from the Bechtel Human Resources
      Manager upon our request. For three of the degrees, Bechtel's documentation of the
      verification was a copy of the diploma. In all three cases the diploma was from a
      foreign school. It was unclear whether this was provided by the school or the
      employee.

•     We verified 85 employee degrees. Fifty-seven employee degrees were verified using
      the National Student Clearinghouse, and twenty-six employee degrees were verified
      by contacting the schools' Registrar/Records Office. We found in one instance that an
      incorrect school was listed. According to a Business Support Representative assisting
      us with obtaining information, the employee contacted the correct school from the
      Bechtel subcontractor's office, and the administrator did have the employee listed in
      the system, and the resume is being corrected. A transcript was obtained from the
      school the employee attended and e-mailed to the OIG team. Another employee had
      to obtain verification and e-mail the official enrollment verification to us because we
      could not verify attendance based on the information available to us.

•     Two employees in our sample were employees of a Bechtel subcontractor which were
      no longer employed by the subcontractor. According to Bechtel's Human Resources
      Manager, their termination was not related to a phony degree. We could not verify
      their attendance/degree based on their application/resume or their social security
      numbers. However, we did not proceed further since they are no longer employed by
      the contractor.

•     We were unable to verify the undergraduate degree of one employee. The claimed
      degree was from the University of Calcutta in India. Bechtel had requested verification
      from the school and received in return a letter stating the school (1) charged a fee and
      (2) required a copy of the diploma for the verification which could not be supplied by
      the employee. According to Bechtel, the employee no longer had a copy of the
      degree. In addition, the position the employee was hired for was a Senior Pipe

4
    Bartlett performs background checks in compliance with the Nuclear Regulatory Commission and the
    Nuclear Energy Institute standards.
5
    Sterling Direct is a provider of employment and background screening services. It offers background
    checks, drug testing, and other key verification and assessment services.
6
    World Education Services is a not-for-profit organization with experience in evaluating international
    credentials.
John Atwell Jr.
Masoud Bajestani
Page 4
December 3, 2009



      Support Engineer which requires a minimum of a bachelor's degree in mechanical or
      civil engineering. We were able to verify that some graduate work was completed as
      noted on his/her resume, but no graduate degree was obtained, and the institution did
      not verify undergraduate degrees on admittance.7

RECOMMENDATION

We recommend the Vice President, WBN U2, in conjunction with the Bechtel Project
Director, make certain that employees' educational degrees are verified if the degree is
required for the position for which they are hired. Furthermore, a copy of a diploma
supplied by an employee should not be considered adequate verification.

MANAGEMENT COMMENTS

TVA management reviewed a draft of this report, agreed with our findings and
recommendation, and plans to take corrective actions.

                            -        -       -        -        -        -        -

This final report is for your review and final action. Please advise us of your planned
actions (i.e., management decision) in response to our findings within 60 days from the
date of this report.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that your recommend be withheld.

If you have any questions or wish to discuss our observations, please contact Heather R.
Kulisek, Auditor, at (423) 785-4815 or Gregory C. Jaynes, Deputy Assistant Inspector
General, Inspections, at (423) 785-4810. We appreciate the courtesy and cooperation
received from your staff during the inspection.



Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

HRK:NLR
cc: Ashok S. Bhatnagar, LP 6A-C                           Richard W. Moore, ET 4C-K
    Terrell M. Burkhart, WT 3A-K                          David Ross Mould, WT 7B-K
    Peyton T. Hairston Jr., WT 7B-K                       Emily J. Reynolds, OCP 1L-NST
    Tom D. Kilgore, WT 7B-K                               OIG File No. 2008-11995
    John E. Long Jr., WT 7B-K
7
    We requested additional information concerning the number of Bechtel employees assigned to the WBN U2
    Project whose position required a degree without verification or only a copy of a diploma as verification
    documentation. Bechtel responded they are unaware of another situation like this one.
